     Department of Homeland Security

     ��������������������������



       Implementation of L-1 Visa Regulations 





OIG-13-107                                August 2013

                           OFFI CE      or INSPECTOR GENERAL
                                 DcpartmeJJt of Hon..,land Securi ty



                                    August 9, 2013

MEMORANDUM FOR:                The Honora ble Alejandro M~yorKa s
                               Dire ctor
                               U.S. Citizen ship and Immigration Serllices

                               Thom as S. Winkowski
                               Deputy CommIssioner of U.s. Cmtoms an d Border Protection,
                               Performing t he duties of the Commissioner of CBP
                               u .s. Customs and Border Protection

                               Charles K. Edwards
                               Deputy Inspector General
                                                             fA1J"      ~
                                                                   d '-....4
                                                             ~~~. ~{,I,/"y"-:J
SUBJECT:                       Implementation of L-1 Visa Regulations

Att ached for your action is our final report, Implementotion of L-1 V,SO Regulations. We
Incorporated the formal comm ents from U.S. Citizenship and Immigration Serllices and u.s.
Cu;toms and Border Prot ~ ction In th e fi nal report.

The rePQl't contains 10 recommendations aimed at improving the l -l IIlsa progra m.
Recommendat ions 1, 2, 3, 6. 8, 9. an d 10 are d ire<ted to USCIS. Recommendations 4, S, ,md
7 are dIrected t o CBP. Your offl("e ("oncurred with all rKOmmendatlons directed to It.
RecommendatIons 7., 3, 4, 5, 8 and 9 are unresolved. B35M on Informilion prollided in your
rlMPO n~ t o t he d raft report, we consider recommen dations 1, 6 and 10 resoilled and open.
Recommen dation 7 is dosed. Once your office has f ully impleme nted th e
recomme ndations, please submit a forma l closeout letter to us within 30 days so t hat we
may close the recommendation( s). The lener should be accompani ~ d bV ellidence of
Co mpl etion of agreed-upon correct ille action s.

Consist ent with our re5pon sibillty under t he Inspe ctor Generol Act, we are prolliding cop ies
of our report to app ro pridte co ngressional committee> with ollersight and approprIation
responsibility o ~er the Department of Homeland Security.

We will post the report on our website for public dis>emination.

Please call me with any questions, or your staff may contact Deborlth Outten-Mills, Acting
AssIstant Inspet:tor General for InspectIons at (202) 254-4015.
                                         OFFICE OF INSPECTOR GENERAL
                                               Department of Homeland Security


   Table of Contents
   

   Executive Summary............................................................................................................. 2 

   

   Background ......................................................................................................................... 2 

   

   Results of Review ................................................................................................................ 6 

   

          Guidance on Specialized Knowledge Would Promote 

          Consistent L-1B Adjudications ................................................................................ 6 

          Recommendation ................................................................................................. 10 

           

          Blanket Petitions ................................................................................................... 10 

          Recommendations ................................................................................................ 14 

           

          CBP Officers Need Additional Training and Guidance To Process L-1 Petitions at 

          Designated Canadian Ports of Entry and Preclearance Stations Effectively ........ 14 

          Recommendation.................................................................................................. 17 

           

          Procedures for the L-1 Visa Fee Collection Process Need To Be Improved ......... 17 

          Recommendation.................................................................................................. 18 

           

          USCIS Can Increase Efforts To Verify the Legitimacy of New Office Petitions ..... 18 

          Recommendation.................................................................................................. 22 

           

          The Validation Instrument for Business Enterprises Can Promote Consistency 

          Within the L-1 Visa Program ................................................................................. 23 

          Recommendations ................................................................................................ 24 

           

          Consistent Application of the 2004 Visa Reform Act Would Increase L-1 Visa 

          Program Integrity .................................................................................................. 25 

          Recommendations ................................................................................................ 26 

           

          Management Comments and OIG Analysis .......................................................... 27 

           





www.oig.dhs.gov                                                                                                                 OIG-13-107 

                                                                      

                             OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


   Appendixes
           Appendix A:   Objectives, Scope, and Methodology ......................................... 333
           Appendix B:   Management Comments to the Draft Report ............................ 344
           Appendix C:   Regulation Definitions................................................................. 399
           Appendix D:   Top Ten L-1 Employers, FY 2002 – FY 2011 .................................. 42
           Appendix E:   H-1B and L-1B Submissions, FY 2002 – FY 2011 ........................... 43
           Appendix F:   Major Contributors to This Report ............................................... 44
           Appendix G:   Report Distribution ...................................................................... 45

   Abbreviations
           AAO           Administrative Appeals Office
           CBP           U.S. Customs and Border Protection
           CBPO          Customs and Border Protection Officer
           CFR           Code of Federal Regulations
           D&B           Dun and Bradstreet
           DHS           Department of Homeland Security
           DOS           Department of State
           FDNS          Fraud Detection and National Security Directorate
           FY            fiscal year
           IMMACT        ImmigrationfActfoff1990f
           INS           U.S. Immigration and Naturalization Service
           ISO           Immigration Services Officer
           OIG           Office of Inspector General
           POE           port of entry
           RFE           Request for Evidence
           USCIS         U.S. Citizenship and Immigration Services
           VIBE          Validation Instrument for Business Enterprises
           VRA           L-1fVisafandfH-1BfVisafReformfActfoff2004




www.oig.dhs.gov                                                                                              OIG-13-107

                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security


Executive Summary
Senator Charles Grassley requested that the Department of Homeland Security (DHS)
Office of Inspector General examine the potential for fraud or abuse in the L-1
intracompany transferee visa program. The L-1 visa program facilitates the temporary
transfer of foreign nationals with management, professional, and specialist skills to the
United States.

Through domestic and international fieldwork, we observed DHS personnel and
Department of State consular officials process L-1 petitions and visas. We also
interviewed 71 managers and staff in DHS and the Department of State.

Although U.S. Citizenship and Immigration Services regulations and headquarters
memorandums provide guidance regarding the definition of specialized knowledge, they
are insufficient to ensure consistent application of L-1 visa program requirements in
processing visas and petitions. More communication between DHS and the Department
of State would improve the processing of blanket petitions. We determined that
program effectiveness would be improved and risks reduced with additional effort in
(1) training for Customs and Border Protection Officers that will enable them to fill their
L-1 gatekeeper role at the northern land border more effectively, (2) improving internal
controls of the fee collection effort at the northern land border, (3) more rigorous
consideration of new office petitions to reduce fraud and abuse, (4) providing an
adjudicative tool that is accessible to all Federal personnel responsible for L-1 decisions,
and (5) consistently applying Visa Reform Act anti-“job-shop” provisions to L-1 petitions.

These issues increase the opportunity for fraud and abuse in the L-1 visa program. We
are making 10 recommendations to improve the integrity of the L-1 visa program. The
Department concurred with all recommendations.




www.oig.dhs.gov                              1                                    OIG-13-107

                                OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


Background
U.S. Citizenship and Immigration Services (USCIS) approves or denies applications for
various immigration benefits, including petitions for temporary workers. The L-1 visa
program originated with the 1970 amendments to the ImmigrationfandfNationalityfAct.1

Legal authorities that control the L-1 visa program include the following:

    •	 1970 Amendments to the ImmigrationfandfNationalityfAct:fEstablished the L-1
       visa program.
    •	 8fCodefoffFederalfRegulationsf(CFR)f§f214.2(l)(1)(ii)(D)(1987):ffAmended the
       regulatory definition of specialized knowledge first published by the U.S.
       Immigration and Naturalization Service (INS) in 1983.
    •	 fImmigrationfActfoff1990f(IMMACT):ffProvided the first statutory definition of
       specialized knowledge and effectively made inapplicable the previous regulatory
       definition that stated the foreign national was required to possess “proprietary”
       knowledge in order to qualify as an L-1B nonimmigrant; increased limits on legal
       immigration to the United States; and revised and established new
       nonimmigrant admission categories.2
    •	 8fCFRf§f214.2(l)(1)(ii)(D)(1991):ffAmended the definition of specialized 

       knowledge in the ImmigrationfActfoff1970. 

    •	 NorthfAmericanfFreefTradefAgreementfoff1994: Allowed Canadian and Mexican
       citizens to temporarily enter the United States by applying for immigration
       benefits directly at a Class A port of entry or a U.S. preclearance/preflight station
       in Canada.3
    •	 L-1fVisafandfH-1BfVisafReformfActfoff2004: Requires that any employee with
       specialized knowledge who will be primarily located offsite must be controlled
       and supervised by the petitioning company, and the placement of the foreign
       national will not be an arrangement to provide labor for hire, but rather will be a
       placement in connection with the provision of products or services for which
       specialized knowledge specific to the petitioning employer is necessary.4

The L-1 visa is one of many visa types that require an approved petition. Before a
foreign traveler can apply for such a visa, a multinational company (the petitioner) must
submit a petition (Form I-129) to USCIS requesting that USCIS make a determination
that the intending traveler (the beneficiary) fits within the L-1 visa category. USCIS
examines the qualifications of both the petitioner and the beneficiary, refers to the

1
  See INA § 101(a)(15)(L), 8 U.S.C. § 1101(a)(15)(L), as added by Pub. L. No. 91-225, Sec. 1(b).

2
  Pub. L. 101-649. 

3
  8 CFR 214.2(b)(4).

4
  See INA § 214(c)(2)(F), 8 U.S.C. § 1184(c)(2)(F), as added by Pub. L. No. 108-447, Sec 412(a).



www.oig.dhs.gov                                       2	                                            OIG-13-107

                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security

requirements imposed by the law, and either approves or denies the request. For the
L-1 visa, there are restrictions as to which companies can apply for L workers and what
kinds of employees might qualify.

An L-1 employee sent to work temporarily in the United States by the petitioning
employer must qualify in one of two subcategories:

   •   L-1A – an alien performing services in a managerial or executive capacity.
   •   L-1B – an alien performing services as a specialized knowledge worker.

Managers and executives need not supervise subordinates. The statutory definitions of
“managerial capacity” and “executive capacity” at INA § 101(a)(44)(A) and (B),
respectively, and the regulations at 8 CFR §f214.2(l)(1)(ii)(B) and (C), allow for functional
management. Most L-1 petitions are adjudicated by Immigration Services Officers (ISOs)
at the California and Vermont Service Centers. After USCIS approves a petition for a
beneficiary who is overseas, a Department of State (DOS) consular officer interviews the
individual at a U.S. consulate or embassy.

We examined some aspects of the L-1 visa program in 2006. Our report Reviewfoff
VulnerabilitiesfandfPotentialfAbusesfoffthefL-1fVisafProgram (OIG-06-22, January 2006)
made three recommendations to improve the program:

       Recommendation 1: Establish a procedure to obtain overseas verification of
       pending H and L petitions by Department of State officers in the related countries.

       Recommendation 2: Explore with ICE [U.S. Immigration and Customs
       Enforcement] whether ICE Visa Security Officers, experienced criminal
       investigators assigned abroad in compliance with Section 428(e) of the
       HomelandfSecurityfAct, could assist in checking the bona fides of L petitions
       submitted by petitioners in the countries in which the officers are assigned.

       Recommendation 3: In cooperation with “L Visa Interagency Task Force,” which
       consists of representatives from the Departments of Homeland Security, Justice,
       and State, seek legislative clarification relative to:

           a) applying the concepts of manager and executive to L-1A visas and verifying
           that the beneficiary will be so used;
           b) the term “specialized knowledge,” as altered in the ImmigrationfActfoff
           1990, and according to USCIS guidance issued in March 1994; and
           c) the criteria and proof required when a foreign company seeks to use an
           L petition to open a new office in the United States. That almost any foreign



www.oig.dhs.gov                              3                                    OIG-13-107

                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security

             business proprietor can effectively petition himself and his family into the
             United States may not be in accord with congressional intent.

After the release of the 2006 report, USCIS took actions sufficiently consistent with the
intent of the recommendations that they were closed.

The 2004 Visa Reform Act Creates Anti-“Job-Shop” Provisions

In 2004, Congress passed the L-1fVisafandfH-1BfVisafReformfAct (VRA), which amended
the ImmigrationfandfNationalityfAct (8 U.S.C. 1184(c)(2)) and made significant changes
to the L-1 visa category.5 One change was the creation of anti-“job-shop” provisions,
which are commonly used to describe a firm that petitions for aliens in L-1B status to
contract their services to other companies, often at wages that undercut the salaries
paid to U.S. workers.6

The VRA requires that any employee with specialized knowledge who will be primarily
located offsite must be controlled and supervised by the petitioning company.
Additionally, the placement of the foreign national will not be an arrangement to
provide labor for hire, but rather will be a placement in connection with the provision of
products or services for which specialized knowledge specific to the petitioning
employer is necessary.7 An L-1B applicant must perform specialized knowledge duties
related to the petitioning employer. ISOs use the Adjudicator’sfFieldfManual and the
July 28, 2005, interoffice memorandum from USCIS as guidance to deny petitions based
on the VRA anti-“job-shop” provisions.8 This memorandum and the above-noted
Adjudicator’sfFieldfManual revisions provide guidance to USCIS officers in the field
regarding amendments made by the VRA.9

Data Trends and Comparisons

USCIS approvals for L-1 petitions peaked in fiscal year (FY) 2007 at 57,218. The number
of approved petitions has declined each year since then, with a total of 33,301 L-1
approvals in FY 2011.10 Of this amount, India has led the world in L-1 visa approvals,
with 26,919 L-1 visas issued in FY 2011. The United Kingdom, Japan, Canada, and


5
  See INA § 214(c)(2)(F), 8 U.S.C. § 1184(c)(2)(F), as added by Pub. L. No. 108-447, Sec 412(a).

6
  Ibid.

7
  Ibid.

8
  USCIS, Adjudicator’sfFieldfManual, Chapters 32.3, 32.4(a) and 32.5.

9
  Interoffice Memorandum from William R. Yates on Changes to the L Nonimmigrant Classification made 

by the L-1 Reform Act of 2004 to USCIS Regional Directors, District Directors, Officers-in-Charge, and 

Administrative Appeals Office Director (July 28, 2005).

10
   U.S. Citizenship and Immigration Services, Office of Performance and Quality, Data Analysis and 

Reporting Branch, February 24, 2012.



www.oig.dhs.gov                                    4                                         OIG-13-107

                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security

Mexico maintain the next highest number of L-1 visa approvals, respectively, with a total
of 16,823 issuances in FY 2011. Between FY 2003 and FY 2010, these five countries
accounted for 75.7 percent of L-1 entries into the United States.11

Since FY 2002, the 10 companies identified in appendix D have received the most L-1
approvals from USCIS. Most of these companies petition for more L-1B specialized
knowledge workers than for L-1A managers.

L-1 Visas as H-1B Substitutes

Some observers have expressed concern that the L-1 visa program, which has no
numerical limit, may be used to avoid the more stringent H-1B program requirements.12
For example, the L-1 visa does not require the filing of a Labor Condition Application
with the Department of Labor. The dependent spouse of an L-1 employee is normally
allowed to work while in the United States, whereas the dependent spouse of an H-1B
employee is not.13 An H-1B worker must have a specialty occupation, while an L-1B
beneficiary must only possess specialized knowledge.

Some employees might properly be considered eligible for either classification based on
their qualifications. However, the data we reviewed provides no conclusive evidence
that the L-1 visa program is being used to avoid H-1B restrictions. Since FY 2008, the
ratio of H-1B to L-1B submissions has actually increased, as shown in appendix E. More
H-1B petitions were submitted per each L-1 petition in FY 2011 than in the previous six
FYs.

The L-1 visa program generates various opinions from organizations. Numerous
publications have discussed the costs and benefits of the H-1 and L-1 visa programs.
Opponents of the L-1 visa program feel that it drives down salaries, reduces
employment opportunities for domestic technology workers, and allows unscrupulous
petitioners to exploit the foreign beneficiaries.14 However, proponents of the L-1 visa
argue that this program allows U.S. firms to remain innovative and recruit and retain the
“best and the brightest.”15




11
   Ibid.

12
   LfVisas:fBigfBusinessesfLoopholefforfDisplacingfAmericanfWorkers, April 2008.

13
   Ibid.

14
   http://dpeaflcio.org/programs-publications/issue-fact-sheets/guest-worker-visas-the-h–1b-and-L-1/ 

15
   Department for Professional Employees, GamingfthefSystemf2012, p. 16. 



www.oig.dhs.gov                                    5                                         OIG-13-107

                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


Results of Review
        Guidance on Specialized Knowledge Would Promote Consistent L-1B
        Adjudications

        We reviewed L-1 petitions ranging from the restaurant industry to the
        information technology field, and concluded that adjudicators reach different
        decisions despite similar fact patterns. Consistent adjudications are vital to
        stakeholder companies because USCIS decisions are key factors in a company’s
        decision to transfer employees to the United States.

        Previous Laws and Policies Governing Specialized Knowledge

        The L-1 visa classification was created by Congress in 1970 without providing a
        statutory definition of “specialized knowledge.” The U.S. Immigration and
        Naturalization Service (INS) published a regulatory definition for the first time in
        1983. In February 1987, the INS amended its definition of specialized knowledge
        as “knowledge possessed by an individual whose advanced level of expertise and
        proprietary knowledge of the organization's product, service, research,
        equipment, techniques, management, or other interests of the employer are not
        readily available in the United States labor market.”16 This definition required an
        employee to be a key person with materially different knowledge and expertise
        that is critical for job performance and relates exclusively to the employer’s
        proprietary interest.17

        In 1988, INS issued a policy memorandum instituting a broader interpretation of
        specialized knowledge, defining it as “special knowledge possessed by an
        employee that is different from or surpasses the ordinary or usual knowledge of
        an employee in the particular field.”18

        The ImmigrationfActfoff1990 (IMMACT) enacted the first statutory definition of
        specialized knowledge, clarifying that the beneficiary’s knowledge need not be
        proprietary to the petitioner or limited in the U.S. labor market. IMMACT states
        that an “alien is considered to be serving in a capacity involving specialized
        knowledge with respect to a company if the alien has a special knowledge of the
        company product and its application in international markets or has an advanced


16
    8 CFR §f214.2(l)(1)(ii)(D)(1989).

17
   Matter of Sandoz Crop Protection Corporation, 19 I&N Dec. 66 (Comm. May 20, 1988).

18
   Interoffice memorandum from Richard Norton, Associate Commissioner, U.S. Immigration and 

Naturalization Service to All Regional Commissioners and All Regional Service Center Directors (October

20, 1988) (on file with USCIS). 



www.oig.dhs.gov                                     6                                         OIG-13-107

                               OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security

         level of knowledge of processes and procedures of the company.”19 Following
         the passage of IMMACT, Congress noted that nonimmigrant visas, such as the
         L-1 and H-1B, had enhanced trade and accommodated useful movement of
         people and products.20

         As a result of IMMACT, INS promulgated the existing regulatory definition of
         specialized knowledge at 8 CFR § 214.2(l)(1)(ii)(D). Federal immigration officials
         issued several policy memorandums providing guidance on what should be
         considered specialized knowledge. A July 1991 INS regulation gave the
         interpretation of specialized knowledge that the individual must possess “special
         knowledge” that applies in international markets or “an advanced level of
         knowledge or expertise in the organization’s processes and procedures.”21 In
         March 1994, INS issued the memorandum “Interpretation of Specialized
         Knowledge,” which noted that a petitioner’s assertion that an alien’s knowledge
         is different does not establish that the alien possesses specialized knowledge.22
         In September 2004, USCIS issued the memorandum “Interpretation of
         Specialized Knowledge for Chefs and Specialty Cooks seeking L-1B status.” This
         memorandum clarified guidance in the 1994 memorandum that chefs or
         specialty cooks generally are not considered to have “specialized knowledge” for
         L-1B purposes, even though they may have knowledge of a restaurant’s special
         recipe or food preparation technique.23

         In 2008, the Administrative Appeals Office (AAO) issued a non-precedent
         decision on an appeal submitted by GSTechnical Services (GST). In the GST
         decision, the AAO concluded that routine work experience and knowledge of a
         company’s products do not constitute specialized knowledge.

         ISOs Do Not Apply the Specialized Knowledge Definition Uniformly

         In an effort to understand how specialized knowledge is applied, we reviewed
         petitions at the USCIS service centers and studied more than 250 petition denials
         that were appealed to the AAO. When a service center denial is upheld, the AAO
         explains to the petitioner the deficiencies in the case. Unsuccessful petitioners,
         industry groups, and the immigration bar raise concerns that USCIS is denying

19
    8 U.S.C. § 1184(c)(2)(B).

20
   1990 U.S.C.C.A.N. 6746.

21
   56 FR 31553 (1991).

22
   Interoffice memorandum from James Puleo, Acting Executive Associate Commissioner, U.S. Immigration 

and Naturalization Services to District Directors, Officers in Charge, Service Center Directors, Director of 

Administrative Appeals Unit and Office of Operations (March 9, 1994) (on file with USCIS). 

23
   Interoffice memorandum from Fujie O. Ohata, Director, Service Center Operations, U.S. Citizenship and 

Immigration Services to Service Center Directors (September 9, 2004) (on file with USCIS). 



www.oig.dhs.gov                                      7                                           OIG-13-107

                                  OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security

           petitions that should be approved. After examining the files, we conclude that
           the low number of successful appeals and the detailed explanation by AAO of
           the deficiencies in the underlying petitions indicate that service centers are not
           unduly restrictive.

           ISOs we interviewed said that specialized knowledge petitions are complicated
           to adjudicate because specialized knowledge has not been adequately defined.
           The terms they used to describe their concerns to us included the following:

                                                “unquantifiable”
                                                                        “subjective”
                             “open to
                             interpretation,
                             unfortunately”               ISO                 “constantly
                                                        Concerns              changing”

                            “the only place
                            where I struggle”
                                                                       “extremely
                                                 “very difficult       risky”
                                                 to adjudicate”


           ISOs told us that when adjudicating specialized knowledge petitions, the general
           principle is “you know it when you see it.” The absence of a meaningful definition
           for specialized knowledge could undermine consistent L-1B adjudications.

           ISOs informed us that even after receiving specialized knowledge training, they
           remain unable to apply the law and policy to L-1B petitions consistently. They
           described a class that they had recently taken as very generic. To increase the
           value of training, ISOs suggested that USCIS should use real life examples. USCIS
           has been developing specialized knowledge guidance to replace the outdated
           March 1994 memorandum.

           In our 2006 report ReviewfoffVulnerabilitiesfandfPotentialfAbusesfoffthefL-1fVisaf
           Program (OIG-06-22, January 2006), we wrote: “One Southeast Asian visa
           section reported officers do not have the knowledge or the guidance necessary
           to determine whether such work involves specialized knowledge, except in the
           most clear cut cases.”24 During this review, we determined that despite efforts
           to implement guidance that has been provided, confusion about the application
           of specialized knowledge still results in inconsistent adjudications.




24
     ReviewfoffVulnerabilitiesfandfPotentialfAbusesfoffthefL-1fVisafProgram, OIG-06-22 (January 2006), p. 11.


www.oig.dhs.gov                                         8                                         OIG-13-107

                                OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security

           The Statutory Definition of Specialized Knowledge Is Vague and Unclear

           The L-1 definition contained in the Immigration and Nationality Act does not
           clearly distinguish between employees with and without specialized
           knowledge.25 As a result, decision making for specialized knowledge petitions is
           inconsistent, and unsuccessful petitioners do not understand why their petitions
           are denied.

           There is a vigorous public debate between stakeholders about what knowledge
           is specialized and what Congress intended when it legislated the L-1B visa. The
           debate has been conducted in congressional hearings, policy journals, and letters
           to the White House.

           In the legislative history to the 1970 legislation that created the L-1B visa
           program, Congress indicated their intent that the classification would be
           narrowly drawn so that the total number of L-1B beneficiaries would not be
           large.26 Some in the stakeholder community argue that the 1990 IMMACT
           intentionally broadened the 1970 constraints with a more liberal definition of
           specialized knowledge. Other stakeholders, including the AAO, believe that the
           IMMACT changes did not alter the program’s original intent to benefit a small
           number of beneficiaries.

           We believe the AAO’s reasoning to be persuasive. The section of the IMMACT
           that relates to L-1B visas appears to be an effort to clarify, not broaden, the
           definition of specialized knowledge. A liberal definition of specialized knowledge
           would open the category to an unlimited number of foreign workers.
           Congressional intent in 1990 notwithstanding, the need for a clear definition of
           specialized knowledge creates frustration for USCIS employees and confusion for
           the public. Because it is not clear which employees should be granted L-1B visas,
           and because there are no numerical limits on the number that can be approved
           each year, the potential number of beneficiaries is limitless.

           Based on our interviews, file reviews, and stakeholder opinions, we conclude
           that the primary challenge for the L-1B category is that the statutory language
           remains open to interpretation. Over the years, the former INS, and now USCIS,
           have made identifiable efforts to clarify this vague concept. Adjudicators cannot
           consistently apply a definition that has no clear meaning. Although USCIS
           regulations and headquarters memorandums provide guidance regarding the



25
     8 U.S.C. § 1101(a)(15)(L).
26
     1970 U.S.C.C.A.N. 2751-2755.


www.oig.dhs.gov                                  9                                 OIG-13-107

                               OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security

           definition of specialized knowledge, they are insufficient to ensure consistent
           application of L-1B visa program requirements in processing petitions and visas.

           Visa officers abroad also need to make specialized knowledge decisions when
           they adjudicate visa applications. The DOS periodically sends visa guidance to
           consular officers at embassies around the world. One message to the field about
           L-1B visas said, in part (emphasis added):

                   “Unfortunately, the statutory language defining ‘specialized knowledge’
                   is not simple or clear. … [A]n alien is considered to be serving in a
                   capacity involving specialized knowledge with respect to a company if the
                   alien has a special knowledge of the company product and its application
                   in international markets or has an advanced level of knowledge of
                   processes and procedures of the company. The phrase ‘specialized
                   knowledge’ is not otherwise defined in the law, and there have been few
                   administrative or judicial opinions interpreting it. This statutory
                   definition has been called tautological, in that it states an alien will serve
                   in a capacity involving specialized knowledge if the alien has special
                   knowledge. As the DHS/AAO noted, ‘the definition is less than clear,
                   since it contains undefined, relativistic terms and elements of circular
                   reasoning.’ A decision by a District Court in Washington, D.C. was even
                   more critical: ‘Simply put, specialized knowledge is a relative and empty
                   idea which cannot have a plain meaning.’”27

           Recommendation

           We recommend that USCIS:

           Recommendation #1:

           Publish new guidance to clarify the USCIS interpretation of specialized
           knowledge. This guidance should be sufficiently explicit to give adjudicators an
           improved basis for determining whether employees of a petitioning entity
           possess specialized knowledge.

           Blanket Petitions

           Regular visa petitions provide required information about both the petitioner
           and the beneficiary. For an L visa to be issued, the petitioner must be a company
           operating in at least two countries, one of which is the United States, and the

27
     Telegram 11State002016, January 2011.


www.oig.dhs.gov                                 10                                     OIG-13-107

                                OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security

         beneficiary must be an employee. This report discusses the challenge that ISOs
         face deciding whether the petitioning company meets the complicated definition
         of an L-1 entity, and the beneficiary qualifies as an executive or possesses
         specialized knowledge. To gain USCIS approval, an L-1 petitioner provides
         extensive information about corporate ownership, business activities, and the
         relationships among its parent, branches, subsidiaries, and affiliates.

         This burden is eased for companies that meet specific criteria. If a petitioner
         meets specific requirements for size and the number of related entities, for
         example, they are allowed to establish the required intracompany relationships
         by filing a blanket petition.28 The blanket petition allows a petitioner to seek
         continuing approval of itself and some or all of its parent, branches, subsidiaries,
         or affiliates as qualifying organizations.29

         With the approved blanket petition as support, individual employees can later
         apply for L-1 visas.30 The petitioner can send employees to the United States
         repeatedly without needing to prove the petitioning company’s eligibility. The
         transferring employees will report to the consular office in their home country to
         prove their individual eligibility for the L-1 classification as a manager, executive,
         or specialized knowledge worker. The approval of a blanket L petition does not
         guarantee that an employee will be granted an L-1 visa. However, it does
         provide the employer with the flexibility to transfer eligible employees to the
         United States quickly and with short notice without having to file an individual
         petition with USCIS. In most cases, once the blanket petition has been approved,
         the employer should complete Form I-129S, Nonimmigrant Petition Based on
         Blanket L Petition, and send it to the employee along with a copy of the blanket
         petition Approval Notice and other required evidence, so that the employee may
         present them to a consular officer.

         Different Standards of Proof Create Inconsistencies in L-1 Adjudications

         The blanket petition process causes unease among both USCIS ISOs and DOS
         consular officers. Some ISOs are concerned that consular officers abroad might
         interpret specialized knowledge too loosely when considering blanket
         beneficiaries. Consular officers are troubled that employees who are denied L-1
         visas abroad can later obtain individual petitions filed on their behalf by the
         same employer. We interviewed consular officers in India who expressed
         concerns that some of the beneficiaries of individual petitions who are approved

28
   See appendix C for the definition of a blanket L-1 petition and a list of criteria required for companies to 

file. 

29
   Ibid.

30
   8 CFR § 214.2(l)(4).



www.oig.dhs.gov                                       11                                            OIG-13-107

                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security

       by USCIS adjudicators would not be approved by consular officers due to their
       knowledge not being specialized.

       Consular officers use a “clearly approvable” standard to determine the
       qualifications for any previously unnamed beneficiary applying for an L-1 visa
       under an approved blanket petition. Clearly approvable means that (1) the
       petitioner is unambiguously an executive or manager, or possesses specialized
       knowledge; (2) supporting documentation establishes that all requirements are
       met; and (3) there are no indications of fraud.

       USCIS ISOs evaluating whether the named beneficiaries of regular L-1 petitions
       have specialized knowledge use a preponderance of evidence standard. The
       preponderance of evidence standard requires only that the evidence supporting
       the applicant’s claim is probably true. This, USCIS explains, means that the
       applicant is more likely eligible than ineligible.

       ISOs are experts in the nuances of difficult adjudications of L-1 petitions. They
       have received relevant L-1 specific training and have years of petition
       experience. L-1 petitions processed at the Service Centers are decided by
       specific teams that concentrate on this kind of petition. In contrast, consular
       officers move from assignment to assignment, do not usually adjudicate
       petitions, and have had no USCIS training. Any particular visa officer may have
       previously adjudicated only a few L-1 visa cases. To have consular officers
       approve only cases that are clearly approvable may be a reasonable means to
       channel the more complicated cases back to USCIS to be decided by more
       experienced adjudicators. Nevertheless, the two standards create a disparity:
       beneficiaries whom consular officers determine to not be unambiguously
       approvable, but whom USCIS determines to be more likely than not approvable.

       When a consular officer denies a visa applicant seeking an L-1 visa under a
       blanket petition, the employer can submit an individual petition for the same
       employee. This individual petition will be adjudicated at one of the two Service
       Centers that process L petitions. Some of the consular officers with whom we
       spoke noted that some L-1 visa applicants applying under a blanket petition are
       denied at post because they do not have specialized knowledge, but then
       reappear months later as the named beneficiaries of an individual petition
       approved by USCIS. The officers understood that any such occurrence might be
       a standard of proof issue, but that their adverse decision had been based on a
       face-to-face interview; USCIS did not have that opportunity. They also noted
       that with a second opportunity, the applicant might submit different information
       to USCIS.



www.oig.dhs.gov                            12                                  OIG-13-107

                                  OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security

             The second petition is supposed to state the reason why the named alien was
             denied an L-1 visa under the blanket procedure and must specify the consular
             office that made the determination.31 However, because the process depends
             on self-reporting, vulnerabilities may ensue.

             Although ISOs and consular officers processing L-1 petitions have different
             missions and guidelines, they recognize the benefit of increased communication
             about specialized knowledge issues. As a solution, ISOs and consular officers
             suggested periodic visits by visa officers to the Vermont or California Service
             Centers and familiarization trips by senior USCIS adjudicators to the posts in
             India where most L-1 visas are adjudicated.


               A Best Practice: Consular Team India Consolidates Blanket L-1 Cases

               In December 2011, Department of State (DOS) visa posts in India
               centralized blanket L-1 petition processing in Chennai. Posts in India
               process the most L-1 visas in the world, with 37 percent of total visas
               worldwide in FY 2011. Almost 90 percent of these petitions were for
               blanket L-1 visas. According to Consular Team India, “India is the only
               country in the world where companies have built a business model
               dependent on using blanket L-1s to send large numbers of personnel to
               the United States who would otherwise require H-1Bs.” Consolidation
               was implemented at the recommendation of the DOS Office of
               Inspector General, urging more supervision, consistency, and
               centralization of visa operations in India.

               Prior to consolidation, L-1 visa standards lacked uniformity.
               Inconsistencies among posts and the complexity of this visa category
               created fairness issues; petitioning companies noted different outcomes
               for their employees with similar circumstances.

               Immediately following consolidation, Chennai started to see positive
               results in its adjudicative process. Consular officers in Chennai handled
               more cases and became more confident and expert. As a result, the
               number of unqualified applicants has decreased and fraud indicators
               have declined.
             Source: Department of State, Consular Affairs, BriefingfforfDHSfOIGfTeam,fApril 16, 2012.




31
     Ibid.


www.oig.dhs.gov                                        13                                         OIG-13-107
                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security

       We believe that ISOs and consular officers possess mutually beneficial L-1
       expertise. Increased communication would enhance the effectiveness of the L-1
       visa program. This communication might include joint training exercises or
       videoconference “round table” workgroups.

       Recommendations

       We recommend that USCIS:

       Recommendation #2:

       Screen L-1 beneficiaries against a list of persons previously denied visas by DOS
       consular officers.

       Recommendation #3:

       Develop broader working-level communications opportunities between ISOs
       adjudicating L petitions and DOS consular officers adjudicating L visa
       applications.

       CBP Officers Need Additional Training and Guidance To Process
       L-1 Petitions at Designated Canadian Ports of Entry and Preclearance Stations
       Effectively

       We previously described the careful review that most L petitions receive at USCIS
       Service Centers and the scrutiny that DOS consular officers pay to L visa
       applicants. However, neither of these things happens when a Canadian seeks to
       cross the northern border as an intracompany transferee.

       Canadians are exempt from many nonimmigrant visa requirements and usually
       apply for admission to the United States at the land border without first
       obtaining a visa. This has several effects on the scrutiny a Canadian L applicant
       receives compared with all other nationalities.




www.oig.dhs.gov                            14                                   OIG-13-107

                               OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security

                                     Most Nationalities                    Canadian L Applicant
        L-1 Petition          Approved or denied by a small           The first U.S. Government
                              cadre of USCIS adjudicators.            official to see the petition is a
                              The employees do                        Customs and Border
                              employment visa cases                   Protection Officer (CBPO),
                              exclusively and have received           who performs the full range
                              significant training relevant to        of U.S. Customs and Border
                              this duty.                              Protection (CBP) duties and
                                                                      may process only a small
                                                                      number of L cases in a month.
        Available Tools       The USCIS Adjudicator’sfFieldf          CBP does not have these
                              Manual contains extensive               tools. Processing some
                              information about how to                travelers nights and
                              process L petitions. USCIS has          weekends, CBP often cannot
                              the ability to quickly verify the       even phone the company to
                              existence of the petitioning            ask questions.
                              company. Unclear petitions
                              are subject to Requests for
                              Evidence.
        Scrutiny of the       L visa applicants receive an in-        The traveler appears
        Traveler              depth personal interview by             unannounced at a port of
                              consular staff at embassies             entry (POE) and is processed
                              and consulates in the                   on the spot. The traveler’s
                              traveler’s home country. If             name is checked against
                              there are any deficiencies, the         TECS, which has some but not
                              traveler obtains additional             all of the data available to
                              documentation from their                consular officers.32 An
                              employer and returns another            unsuccessful traveler can,
                              day for further examination.            and sometimes does, “port
                              All visa applicant names are            shop” by driving to the next
                              checked automatically against           bridge or tunnel and trying
                              myriad visa security                    their luck again with a
                              databases.                              different CBPO.

        CBPOs assigned at POEs normally permit or deny a traveler’s admission into the
        United States and determine the length of stay on any particular visit.33 On the
        Canadian border and at preclearance facilities in Canadian airports, CBPOs also
        determine whether L-1 petitions are approvable and whether the traveler

32
   TECS (not an acronym) is the principal system used by CBPOs at ports of entry to assist with screening
and determinations regarding admissibility of arriving persons.
33
   http://travel.state.gov/visa/temp/types/types_1274.html


www.oig.dhs.gov                                     15                                         OIG-13-107

                                 OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security

           qualifies as an L-1 beneficiary.34 Most of the CBPOs we interviewed feel that an
           inadequate level of L-1 training hampers their effectiveness.

           Basic training courses for entry-level CBPOs at the Federal Law Enforcement
           Training Center cover inspection processes, visa classifications, and the statutory
           grounds for traveler inadmissibility. Basic training also introduces all other laws,
           rules, and regulations that CBP enforces, many of which are customs-related.
           The curriculum for entry-level CBPOs does not include L-1 visa training.

           Upon arrival at their first POE, new officers receive on-the-job training specific to
           that port of entry. L-1 visa training at the POEs we visited was limited to written
           material saved from a previous training event and on-the-job training
           administered by more experienced colleagues. This type of training is beneficial,
           but more structured training would ensure greater consistency in assessing
           qualifications for L-1 visa benefits.

           We heard concerns about northern border cases from the USCIS adjudicators
           and fraud detection specialists we interviewed. One USCIS fraud specialist said
           that while on detail to a northern border port of entry, he witnessed CBPOs
           accepting L-1 petitions that were 20 years old, missing pages containing vital
           information, or missing appropriate supporting documentation. Several fraud
           specialists we interviewed told us that they believe that there are fraud concerns
           with petitions processed by CBPOs. For example, an applicant whose admission
           is denied may withdraw their application and reapply at another POE. Because
           of the inconsistency in the decision-making process, a petition that was denied
           at one POE may be approved at another. The majority of the USCIS adjudicators
           we interviewed consider L determinations to be complex, and do not consider
           northern border CBPOs adequately trained or resourced to make quality
           L decisions.

           Many of the CBPOs we interviewed agree with the concerns expressed by USCIS
           adjudicators. Some questioned the visa security implications of asking CBPOs on
           the northern border to make L-1 visa determinations that in all other contexts
           would be made by better equipped USCIS adjudicators. To do the best job they
           can, they reserve L processing for their more experienced officers, but worry
           that L-1 visa processing diverts these experienced POE staff away from the core
           mission of stemming the flow of illegal drugs, terrorists, and undocumented
           aliens into the United States. CBPOs we interviewed provided the following
           suggestions for how to strengthen the northern border L-1 process:


34
     The NAFTA Adjudications – Training Materials, slide 112.


www.oig.dhs.gov                                       16                              OIG-13-107

                                 OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security

                •	 Limit the number of POEs making L-1 determinations, and provide the
                   service only Monday through Friday during normal business hours. This
                   would allow CBP to concentrate the workload and assign it to a small
                   number of better trained and more experienced officers who could
                   contact petitioning companies when necessary.

                •	 Eliminate the northern POE adjudication service and require L travelers to
                   obtain L visas from consular offices in Canada. Why, some CBPOs asked
                   us, is CBP performing a USCIS function? One clear congressional goal
                   when dismantling the former INS was to separate immigration benefit
                   and immigration enforcement operations. Congress assigned benefit
                   determinations to USCIS and enforcement operations to CBP.

                •	 Have USCIS station trained adjudicators at each of the two or three
                   busiest POEs to handle the L workload.

           To improve the accuracy of L-1 determinations at the northern border, CBP must
           increase the amount and quality of L-1 training given to northern border CBPOs.

           Recommendation

           We recommend that CBP:

           Recommendation #4:

           Provide thorough L-1 visa training to all CBPOs processing L-1 travelers at ports
           of entry or preclearance/preflight stations in Canada. Training should include
           determining petitioner’s eligibility, L-1 fraud detection, correct assessment of
           fees, specialized knowledge, and the provisions of the Visa Reform Act.

           Procedures for the L-1 Visa Fee Collection Process Need To Be Improved

           L-1 petitioners are required to pay a $500 fraud fee when they submit a petition.
           They also must pay a $2,250 fee if they employ 50 or more employees in the
           United States with more than 50 percent of their employees in L-1A or L-1B
           nonimmigrant status.35 USCIS and CBP interviewees told us that CBPOs are
           sometimes confused about when to collect the fees and how to document the
           collection. In addition, there is no reliable way for the processing CBPO to know
           how many petitioning-company employees are in L status in the United States.
           We determined that appropriate fees were not always charged, and duplicate

35
     These fees are also paid by petitioners for some other categories.


www.oig.dhs.gov                                       17	                           OIG-13-107

                                   OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security

            fees were sometimes charged when there were no receipts to prove prior
            payment.

            One USCIS manager stated that after August 2010, when the $2,250 fee was
            implemented, 2 months passed before CBP began collecting it.36 One ISO stated
            that there were meetings at the headquarters level between CBP and USCIS to
            explain the circumstances under which these fees should be collected. However,
            CBP headquarters has not issued guidance to the field regarding this issue.

            According to one USCIS manager, it was estimated that more than 2,000
            petitioners were not charged the $2,250 fee because CBPOs could not verify
            whether the petitioners had 50 or more employees. CBP’s TECS data system
            does not have fee collection data fields. To document a fee collection, a text
            note is usually placed in the general notes field in TECS indicating that the fees
            were paid.

            To improve the integrity of the fee collection process, CBP should establish clear
            guidelines for fee collection, develop methods to accurately record the
            payments of fees, and train CBPOs in the new process.

            Recommendation

            We recommend that CBP, in concert with USCIS:

            Recommendation #5:

            Establish fraud fee collection guidelines for CBPOs processing L-1 travelers. At a
            minimum, procedures should prevent incorrect charges to travelers, provide an
            audit trail, and show CBPOs a history of the traveler’s previous fee payments.

            USCIS Can Increase Efforts To Verify the Legitimacy of New Office Petitions

            The L-1 visa classification allows a foreign company that does not have an
            affiliated U.S. office to send an executive, manager, or specialized knowledge
            worker to help start a new office. A new office is “an organization which has
            been doing business in the United States through a parent, branch, affiliate, or
            subsidiary for less than one year.”37




36
     Pub. L. 111-230.
37
     8 CFR § 214.2(l)(1)(ii)(F).


www.oig.dhs.gov                                  18                                   OIG-13-107

                                  OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security

            Although IMMACT requires an L-1 beneficiary to be a manager, executive, or
            specialized knowledge worker, the head of a new office usually will neither
            manage employees (who have not yet been hired), oversee ongoing business
            activities (that have not yet commenced), nor serve as a functional manager of
            an ongoing business function. Instead, the beneficiary’s responsibilities may
            include conducting nonqualifying duties such as renting office space, buying
            furniture and equipment, and hiring workers. The L-1 new office regulation
            grants L-1 status for a 1-year period during which the beneficiary need not meet
            the L-1 statutory definition and manage subordinates. At the end of the 1-year
            period, some beneficiaries may not qualify for continuing L-1A or L-1B status if
            they are not by then engaging primarily in high-level work. An L-1A petitioner
            must also demonstrate that a manager or executive will be needed and that the
            office will be doing business in the future.38

            According to Chapter 32.3 of the Adjudicator’sfFieldfManual, “additional scrutiny
            should be given to petitions where the initial petition is granted to allow the
            petitioner and/or beneficiary to effectuate a tentative or prospective business
            plan or otherwise prospectively satisfy the requirement for the nonimmigrant
            classification.” However, because new office petitions include plans and
            projections, several ISOs explained that there is not much factual evidence in the
            files they adjudicate. It can only be established at the end of the year whether
            the beneficiary is entitled to L-1 status. Some ISOs give the new office petitioners
            the “benefit of the doubt,” while other ISOs deny the initial petition if they
            conclude that the requirements will not have been met after a year. ISOs said
            that USCIS generally favors approval of initial new office petitions. If definitional
            requirements are not met after the 1-year period, USCIS can deny the
            petitioner’s request for an extension.

            ISOs expressed some concerns about the vulnerabilities associated with new
            office petitions: one told us that he believed USCIS is lenient with initial new
            office petitions; another said that new office petitions must have supervisory
            approval to deny, which diminishes an ISO’s discretion.

            Our file reviews showed that some new office petitions were approved even
            when the beneficiary did not submit sufficient evidence that the L-1 beneficiary
            will meet the regulatory definition after the first year. We also noted instances
            where petitions received an approval, even though the facts of the cases were
            similar to other cases that were denied. Examples of problems we observed
            include the following:


38
     8 CFR § 214.2(l)(3)(v)(C).


www.oig.dhs.gov                                  19                                    OIG-13-107

                           OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security

           •	 Lack of a realistic business plan or a plan that is so vague, the petitioner
              cannot present a viable path to meeting L-1 definitions at the end of the
              1-year period;

           •	 Initial staffing structures that raise questions about the future need for
              an L-1A manager or executive. Common examples we reviewed included
              gas stations or convenience stores that list several “managers,” with few
              workers involved in the day-to-day functions of the business;

           •	 Managers who perform nonqualifying work as a central part of their job;
              and

           •	 Inconsistencies or vagueness in how the beneficiary’s managerial or
              executive job is described.

       We believe that there are program integrity risks with new office petitions and
       conclude that these petitions are sometimes approved erroneously.

       The New Office Regulation Is Inherently Susceptible to Abuse

       New office petitions and extensions are inherently susceptible to abuse because
       much of the information in the initial petition is forward-looking and speculative.
       For example, some companies cannot accurately forecast exactly how the
       company would grow to justify an L-1A manager or executive after the 1-year
       period. It might also not be known at the time of filing exactly where some
       offices will be located or what equipment will be purchased. ISOs told us that
       petitioners can present speculative, even imaginary information, or simply recite
       regulatory definitions in order to receive a new office petition approval.

       Several decisions from the Administrative Appeals Office note this abuse:

                   “the record shows that the
                                                      “The petitioner has not reported any
                   beneficiary, two years after
                                                      income or expenses or paid any taxes
                   the granting of the
                                                      since its incorporation in October 2005.”
                   petitioner’s first “new office”
                   approval, has still been
                   performing many of the non-        The beneficiary stated that he will
                   managerial duties associated       form the United States company “once
                   with the petitioner’s startup      the L-1 is approved.”
                   activities.”




www.oig.dhs.gov                                 20	                                   OIG-13-107

                               OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security

        New office beneficiaries who wish to extend their stay after the 1-year period
        must submit a request for an extension that allows the beneficiary to remain in
        the United States for an additional 2 years. The beneficiary can be approved for
        up to two extensions and stay for a total of 7 years. New office extensions are
        exempt from the USCIS policy that gives deference to prior approvals.39 However,
        some ISOs told us that they apply deference to new office petitions approved
        previously and hesitate to deny extensions, assuming that other colleagues
        previously examined them favorably.

        We learned from our file review and interviews that some understaffed,
        underfunded, or even inactive companies are abusing the L-1 visa program. One
        pattern of abuse is an L-1A manager hiring family members and appearing to
        manage them in order to corroborate their claim to be an L-1A manager or
        executive. Several non-precedent AAO decisions confirm this: “The petitioner
        also claims to employ the beneficiary’s spouse as its office manager, but she has
        indicated on her Form I-539 application that she has not worked in the United
        States in L-2 status, and she has not submitted an application for employment
        authorization.”40 Spouses of L-1 beneficiaries have L-2 status and are authorized
        to seek employment in the United States. It should raise a red flag, however,
        when an L-1 manager includes family members among the supposed staff.

        Site Visits Assist Fraud Detection Efforts

        An ISO or DOS consular officer can request a site visit to the prospective location
        of the new office to determine the legitimacy of that location. The site visit is
        conducted through the USCIS Fraud Detection and National Security (FDNS) unit.
        Sometimes, an ISO will ask a consular officer at the U.S. embassy in the foreign
        country to conduct a site visit to verify the legitimacy of the petitioning foreign
        business. Consular officers told us that because of the demands of their normal
        duties, it may be difficult to find time to visit businesses in locations far from the
        embassy or consulate.

        In our 2006 report, we learned that petitioners were using the new office
        provision to petition for themselves and family members to come to the United
        States. Often, when site visits were conducted, USCIS discovered that the

39
   “In matters relating to an extension of nonimmigrant petition validity involving the same parties
(petitioner and beneficiary) and the same underlying facts, a prior determination by an adjudicator that
the alien is eligible for the particular nonimmigrant classification sought should be given deference.” See
Interoffice Memorandum from William R. Yates on The Significance of a Prior CIS Approval of a
Nonimmigrant Petition in the Context of a Subsequent Determination Regarding Eligibility for Extension of
Petition Validity to Service Center Directors and Regional Directors (April 23, 2004).
40
   EAC 06 [receipt number withheld], September 5, 2007, p. 9.


www.oig.dhs.gov                                     21                                         OIG-13-107

                                 OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security

           business never existed or was no longer doing business in the United States. As
           a result, the beneficiary no longer qualified for L-1 status because there was no
           intracompany relationship.41

           Another ploy involves a foreign sole proprietor who opens a new office in the
           United States, petitions for family members, and then closes the foreign business
           altogether. Several consular officers said most new office petitions should
           require a site visit, especially the ones in which applicants petition for
           themselves and their family.

           Several consular officers said they have requested FDNS site visits for new office
           petitions and found them effective in detecting fraud. We reviewed one case in
           which USCIS personnel conducted a site visit to a U.S. company and discovered
           an empty office. Building management told USCIS personnel that the space had
           been vacant for 2 years and the rent had not been paid in a long time. Further
           research revealed that the petitioner had attempted to start six other businesses
           from the same empty office.

           In another case, USCIS personnel conducted a site visit to a U.S. company and
           discovered a leased space with a desk and chair, but no computer, telephone,
           fax, company signage, or employees. After conducting a follow-up interview
           with the beneficiary, the beneficiary admitted that his only reason to set up
           business in the United States was because all of his friends have U.S. residency
           and he wanted to move his family to the United States.42

           L-1 site visits have improved L-1 visa program integrity. A provision in the USCIS
           regulation to allow new office extensions beyond the 1-year period only after a
           successful site visit evaluation could deter future petitioners from abusing the
           new office regulation.

           Recommendation

           We recommend that USCIS:

           Recommendation #6:

           Make a site visit a requirement before extending 1-year new office petitions.




41
     ReviewfoffVulnerabilitiesfandfPotentialfAbusesfoffthefL-1fVisafProgram, OIG-06-22 (January 2006), p. 16.
42
     NIV Petition Revocation Request, EAC–10–[receipt number withheld], February 7, 2011, p. 3.


www.oig.dhs.gov                                       22                                         OIG-13-107

                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security

        The Validation Instrument for Business Enterprises Can Promote Consistency
        Within the L-1 Visa Program

        VIBE Acts as an Adjudicative Tool

        When a petitioner files an L-1 petition, an ISO must verify that the petitioning
        organization is financially viable and that a corporate relationship exists between
        the foreign and U.S. entities. In May 2010, USCIS launched the Validation
        Instrument for Business Enterprises (VIBE). It is a web-based tool that uses
        commercially available data to validate basic information about companies
        petitioning to employ alien workers. VIBE’s main goal is to equip adjudicators
        with information they can use to help determine petitioners’ eligibility.43

        VIBE scores the petitioning organization’s operational and financial viability. The
        system enables ISOs to identify any inconsistencies in the petition and rule out
        fraud. VIBE receives information about petitioning organizations from Dun &
        Bradstreet (D&B), an independent information provider. When an L-1 petition is
        received, the petitioner’s information is transmitted to D&B to be matched with
        a known commercial entity in the D&B database. When a match is detected,
        D&B retrieves the information and sends it back to VIBE. VIBE compares the
        data against a series of specially designed algorithms to score the petition’s
        various elements. VIBE helps ISOs identify any problematic areas in the petition.
        After the VIBE check, if issues are raised, it may be necessary to send the
        petitioner a Request for Evidence (RFE) or give the case careful scrutiny.

        VIBE Accomplishes Its Mission Objectives

        The Service Center Operations directorate of USCIS continually makes
        improvements to VIBE. For example, an ISO can enter comments into VIBE
        based on information received from an RFE. This enables the ISO to share with
        USCIS any relevant information not submitted in the original petition that may
        be detrimental to the application’s approval or denial. VIBE also strengthens
        USCIS’ ability to detect fraud in L-1 petitions. For instance, VIBE is the first USCIS
        system that can identify a problematic petition sent to an ISO and stop it prior to
        approval.




43
  Validation Instrument for Business Enterprises Program, http://www.uscis.gov/vibe (accessed July 30,
2012).


www.oig.dhs.gov                                   23                                         OIG-13-107

                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security

       VIBE Is Limited to USCIS

       USCIS is the only Federal agency that has unlimited access to VIBE. However,
       DOS and CBP process L-1 petitions at U.S. embassies and consulates and Class A
       ports of entry and preclearance stations. Wider VIBE availability to DOS and CBP
       stakeholders would improve L program integrity.

       Several consular officers who process employment-based petitions expressed
       their wish to be able to access VIBE in order to confirm the bona fides of
       petitioners. VIBE could provide DOS personnel with access to petitioner
       information crucial to processing L-1 visa applications. In turn, DOS personnel
       could increase and strengthen VIBE’s library of petitioners. During 2012, USCIS
       began to make VIBE available to a limited number of DOS consular officers,
       primarily in Fraud Units.

       CBP could also benefit from access to VIBE. We observed a CBPO who
       attempted to process an employment-based petition. The officer noted
       discrepancies in the application and attempted to call the petitioner to verify the
       petitioner’s information. However, there was no response at the phone number
       provided. Because of inadequate information, the officer declined to process
       the petitioner’s application. The applicant was denied entry and instructed to
       retrieve additional supporting documentation before resubmitting the
       application. In this instance, VIBE could have eliminated the need for the CBPO
       to call the petitioning organization to verify discrepancies in the application,
       since it provides information that establishes the viability of a petitioning
       organization.

       CBP’s ability to access VIBE would promote and strengthen L-1 visa adjudicative
       consistency, increase information sharing among agencies, and further USCIS’s
       anti-fraud mission.

       Recommendations

       We recommend that CBP:

       Recommendation #7:

       Request USCIS to provide CBPOs at the northern border ports of entry and
       preclearance locations with access to VIBE to assist in L-1 petition processing.

       We recommend that USCIS:



www.oig.dhs.gov                            24                                    OIG-13-107

                                 OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security

           Recommendation #8:

           Grant CBP access to VIBE to assist in L-1 petition processing and promote
           program integrity.

           Consistent Application of the 2004 Visa Reform Act Would Increase L-1 Visa
           Program Integrity

           ISOs Inconsistently Apply Visa Reform Act Anti-“Job-Shop” Provisions

           Congress added anti-“job-shop” provisions to the VRA to prevent petitioners
           from using L-1B applicants at third-party worksites unrelated to the petitioning
           company (referred to as labor for hire). These provisions protect U.S. workers by
           prohibiting companies from sending L-1B applicants to work for a third-party
           company on products widely accessible to U.S. workers. However, USCIS does
           not have a regulation on the VRA anti-“job-shop” provisions. As a result, the
           provisions are not applied consistently. Some ISOs deny petitions when “job-
           shop” concerns are found in petitions; others do not. We reviewed approved
           cases with “job-shop” concerns—notes in the file that the beneficiary would be
           sent to a client’s site to perform work for a third-party client.

           Several non-precedent AAO decisions note this inconsistency. In some decisions,
           ISOs included VRA language in denial letters. However, in other decisions, the
           AAO added anti-“job-shop” language because ISOs did not deny the petition for
           VRA reasons, even though the beneficiary would be performing work primarily
           for a third party. In one such example, the AAO denied an appeal based on
           provisions of the VRA, even though USCIS did not cite these provisions in its
           denial: “Beyond the decision of the director, the petition must also be denied on
           additional grounds that were not addressed in the certified decision. Contrary to
           counsel’s claims, this case does present issues under the L-1 Visa Reform Act and
           section 214(c)(2)(F) of the Act.”44

           In other non-precedent AAO cases, ISOs incorrectly applied VRA standards in
           denial letters. For example, in one decision, USCIS used incorrect VRA standards
           to deny an L-1B petition: “As a threshold matter, it is noted that the director’s
           determination that ‘it appears that the beneficiary may not be 100% supervised
           by the petitioner’ is an incorrect standard under the L-1 Visa Reform Act, and this
           determination shall be withdrawn.”45



44
     WAC 07 [receipt number withheld], July 22, 2008, p. 40.
45
     WAC 07 [receipt number withheld], Nov. 3, 2008, p. 7.


www.oig.dhs.gov                                      25                             OIG-13-107

                                 OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security

           Several interviewees said that USCIS does not have sufficient policy to illustrate
           labor for hire examples, which in turn hampers effective use of the VRA
           standards. Some senior USCIS employees said that additional guidance would
           help implement the law. Some ISOs said that labor-for-hire concerns have never
           been the basis for them to deny petitions. The ISOs added that they felt they
           had insufficient policy guidance and training in this area. One ISO said that he
           never received training on the VRA anti-“job-shop” provisions and never denies
           petitions on labor-for-hire issues.

           The L-1 visa program is susceptible to fraud and abuse when ISOs do not
           consistently apply anti-“job-shop” provisions to petitions that would otherwise
           be deniable. The AAO recognizes this in many cases. One appeal file we
           reviewed was critical of the center’s approval of a case in which VRA concerns
           ought to have caused a denial: “Assuming arguendo that the petitioner had
           established that the beneficiary possesses specialized knowledge, the terms of
           the L-1 Visa Reform Act would still mandate the denial of this petition.”46

           Current guidance in the Adjudicator’sfFieldfManualfis limited and confusing.
           Section 32.3 notes that if the L-1 employer typically performs specialized services
           and sends L-1B workers offsite, the VRA provisions may not apply.

           Recommendations

           We recommend that USCIS:

           Recommendation #9:

           Create a regulation on the Visa Reform Act anti-“job-shop” provisions that will
           increase consistency in decision making.

           Recommendation #10:

           Update existing guidance on the Visa Reform Act anti-“job-shop” provisions that
           Immigration Service Officers can use in the interim while a regulation is created.




46
     WAC 08 [receipt number withheld], Nov. 3, 2008, p. 8.


www.oig.dhs.gov                                      26                             OIG-13-107

                          OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security

Management Comments and OIG Analysis

We evaluated USCIS’ and CBP’s formal and technical comments and have made changes
to the report where appropriate. A summary of USCIS’ and CBP’s written response to
each recommendation, and our analysis, is included below. A copy of the formal joint
USCIS/CBP response, in its entirety, appears in appendix B.

Of the ten recommendations, seven were directed to USCIS and three to CBP. Both
components concurred with their respective recommendations, and have taken actions
to address the majority of the recommendations. Their formal responses, however,
noted some implementation challenges.

Recommendation #1:

We recommend that USCIS publish new guidance to clarify USCIS’ interpretation of
specialized knowledge. This guidance should be sufficiently explicit to give adjudicators
an improved basis for determining whether employees of a petitioning entity possess
specialized knowledge.

USCIS Response: USCIS concurs with recommendation 1. USCIS has a draft policy
memorandum in review for official agency clearance. The draft policy memorandum
specifically addresses L-1B specialized knowledge adjudications, including the
importance of the 2004 Visa Reform Act.

OIG Analysis: The action USCIS proposes is responsive to the intent of this
recommendation. We anticipate closing the recommendation when we receive and
have reviewed the policy memorandum clarifying the interpretation of specialized
knowledge. We consider recommendation 1 Resolved and Open.

Recommendation #2:

We recommend that USCIS screen L-1 beneficiaries against a list of persons previously
denied visas by DOS consular officers.

USCIS Response: USCIS concurs with recommendation 2. However, USCIS notes
significant implementation challenges. USCIS officials said it will be difficult to
accomplish the recommendation because the computer system currently used for L visa
adjudications does not allow for this type of coordination with DOS records. USCIS plans
to integrate this type of screening into its L adjudicatory process once L petitions are
added to the USCIS’ Electronic Immigration System, a new system capable of interfacing
with DOS’ systems. USCIS estimates that incorporating L-1 beneficiaries into the
Electronic Immigration System will not occur until 2015.


www.oig.dhs.gov                            27                                   OIG-13-107

                          OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


OIG Analysis: USCIS’ proposed actions are responsive to the intent of the
recommendation. Once USCIS implements the plan described in its response, we will
close the recommendation. We consider recommendation 2 Unresolved and Open.

Recommendation #3:

We recommend that USCIS develop broader working-level communications
opportunities between ISOs adjudicating L petitions and DOS consular officers
adjudicating L visa applications.

USCIS Response: USCIS agrees that close communication with DOS is critical and
welcomes the opportunity to work closely with DOS consular officers on L visa
adjudications. USCIS plans to establish regular meetings with the Visa Office in the
Bureau of Consular Affairs at DOS regarding L adjudication issues. USCIS met and
conferred with Bureau of Consular Affairs personnel in the development of its draft L-1B
policy memorandum. USCIS will work with the Bureau of Consular Affairs to arrange the
most efficient means of maintaining person-to-person communications, given budget
challenges and time zone differences amongst relevant personnel.

OIG Analysis: The actions proposed by USCIS are responsive to the intent of the
recommendation. We cannot now determine how these plans will affect the
communications between service center adjudicators and consular section visa officers.
USCIS should provide documentation confirming the development of the new
communication opportunities. We consider recommendation 3 Unresolved and Open.

Recommendation #4:

We recommend that CBP provide thorough L-1 visa training to all CBPOs processing L-1
travelers at ports of entry or preclearance/preflight stations in Canada. Training should
include determining petitioner’s eligibility, L-1 fraud detection, correct assessment of
fees, specialized knowledge, and the provisions of the VisafReformfAct.

CBP Response: CBP concurs with recommendation 4. CBPOs receive extensive L-1
training at the CBP Field Operations Academy and formal post-academy training. CBP
continually and periodically provides L-1 training to all CBPOs who are performing
adjudicative duties at the ports of entry (POEs). On June 27, 2012, CBP provided
enhanced administrative guidance to CBPOs through the release of a detailed North
America Free Trade Agreement (NAFTA) Reference Guide for TN and L applicants. The
guide is an enhanced operational manual designed to clarify Canadian business
travelers’ entry provisions under NAFTA and achieve optimal consistency at all POEs. In
July 2012, CBP created a “Business Traveler’s Corner” (BTC) webpage on CBPnetsecure


www.oig.dhs.gov                            28                                   OIG-13-107

                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security

under the “Officer’s Reference Tool” site where the latest memoranda and regulations
pertaining to L-1 visas and business travelers are posted. The BTC webpage is
maintained and updated regularly. It is an effective source of information for CBPOs
seeking information pertaining to admissibility about L-1 visas and business travelers.
CBP will continue to provide the highest standard of training to the CBPOs in regards to
processing L-1 applications, including, periodically reminding the CBPOs via musters and
training memoranda of the proper procedures for adjudicating L-1 applications. CBP
considers recommendation 4 complete and requests closure.

OIG Analysis: CBP requested that we consider closing recommendation 4. CBP makes
copious information available to CBPOs who can indeed look it up, but we do not
consider that to be as effective as training. To meet the intent of our recommendation,
CBP needs to develop additional L training sufficient that most officers could accurately
process most L travelers without needing to turn to the manuals. This training should
include determining petitioner’s eligibility, L-1 fraud detection, correct assessment of
fees, specialized knowledge, and the provisions of the VisafReformfAct. We consider
recommendation 4 Unresolved and Open.

Recommendation #5:

We recommend that CBP, in concert with USCIS, establish fraud fee collection guidelines
for CBPOs processing L-1 travelers. At a minimum, procedures should prevent incorrect
charges to travelers, provide an audit trail that documents the transfers of the funds,
and show CBPOs a history of the traveler’s previous fee payments.

CBP and USCIS Response: CBP and USCIS concur with this recommendation. CBP and
USCIS will identify the level of detail regarding fee information in USCIS systems that is
available to CBPOs at the northern border. After CBP and USCIS determine information
needs and identify any gaps, CBP will then, with the assistance of USCIS, develop and
implement solutions that provide an appropriate level of information to CBPOs
processing L-1 travelers at the northern border. Once solutions are implemented, CBP
will develop an internal strategy for the implementation of fraud fee collection by the
CBPOs.

OIG Analysis: CBP and USCIS plans are responsive to the intent of the recommendation.
We recognize this recommendation requires a collaborative approach. CBP and USCIS
should provide the status of this collaborative effort and any evidence to support their
implementation of fraud fee collection guidelines. We consider recommendation 5
Unresolved and Open.




www.oig.dhs.gov                             29                                   OIG-13-107

                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security

Recommendation #6:

We recommend that USCIS make a site visit a requirement before extending 1-year new
office petitions.

USCIS Response: The USCIS Fraud Detection and National Security Directorate expects
to begin conducting post-adjudication domestic L-1 compliance site visits in the First
Quarter of FY2014.

OIG Analysis: The USCIS plans are responsive to the intent of the recommendation.
USCIS should provide documentation for this new initiative and any other evidence
documenting completion of compliance site visits. We will consider this
recommendation closed upon receipt of the requested documentation. We consider
recommendation 6 Resolved and Open.

Recommendation #7:

We recommend that CBP request USCIS to provide CBPOs at the northern border ports
of entry and preclearance locations with access to VIBE to assist in L-1 petition
processing.

CBP Response: CBP concurs with this recommendation. On May 7, 2013, CBP
requested from USCIS access to VIBE for CBPOs at the northern border POEs and pre-
clearance locations. On May 22, 2013, USCIS agreed to grant CBP access to VIBE. CBP
proposes that the granting of access be phased in waves at the northern border POEs
and pre-clearance locations.
• Phase 1: Access will be given to CBPOs stationed at Northeastern Border POEs (to be
completed by October 31, 2013);
• Phase 2: Access will be given to CBPOs stationed at Northwestern Border POEs (to be
completed by November 30, 2013); and
• Phase 3: Access will be given to CBPOs stationed in Preclearance (to be completed by
December 31, 2013).
USCIS will provide VIBE training to a group of CBPOs selected by their respective field
offices. These selected CBPOs will in turn provide in-house training to CBPOs granted
access to VIBE. CBP considers recommendation 7 complete and requests closure.

OIG Analysis: We consider the actions CBP has taken and planned to be responsive to
recommendation 7, which is Resolved and Closed.




www.oig.dhs.gov                            30                                  OIG-13-107

                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


Recommendation #8:

We recommend that USCIS grant CBP access to VIBE to assist in L-1 petition processing
and promote program integrity.

USCIS Response: USCIS concurs with recommendation 8. USCIS agrees that granting
CBP access to VIBE will assist CBP with the processing of L petitions at the border and
will promote program integrity. USCIS noted that information available via VIBE to
CBPOs at the border will only reflect those petitions for which USCIS generated a receipt
number. USCIS will continue to review how VIBE data is entered and recorded to
maximize CBP’s ability to process L-1 petitions and promote program integrity.

OIG Analysis: The USCIS plans are responsive to the intent of the recommendation.
However, USCIS does not provide a plan for granting access to CBP. USCIS should
provide documentation that includes an action plan and a timeline for implementing
this recommendation. We will review information USCIS provides as these changes are
implemented. We consider this recommendation Unresolved and Open.

Recommendation #9:

We recommend that USCIS create a regulation on the VisafReformfAct anti-“job-shop”
provisions that will increase consistency in decision making.

USCIS Response: USCIS concurs with recommendation 9. USCIS agrees that it is
important to have consistency and clarity in adjudications under the L-1 Visa Reform Act
of 2004. The draft L-1B policy memorandum that is currently in clearance includes
guidance on implementation of these provisions. USCIS is also considering rulemaking
under the L-1 Visa Reform Act so that it can provide its officers, as well as its
stakeholders, with enhanced clarity as to the standards that apply to L-1B petitions. In
addition, USCIS will be considering use of the Administrative Appeals Office (AAO)
precedent decision process as a vehicle for enhancing guidance in this area.

OIG Analysis: The USCIS plans are not responsive to the intent of the recommendation.
The plans are only to consider a rulemaking, and involve various options, not a specific
course of action. USCIS should provide a clear and concise plan to address the
regulation on the VisafReformfAct anti-“job-shop” provisions. We consider
recommendation 9 Unresolved and Open.




www.oig.dhs.gov                            31                                  OIG-13-107

                        OFFICE OF INSPECTOR GENERAL
                           Department of Homeland Security

Recommendation #10:

We recommend that USCIS update existing guidance on the VisafReformfAct anti-“job-
shop” provisions that Immigration Service Officers can use in the interim while a
regulation is created.

USCIS Response: USCIS concurs with recommendation 10. USCIS has included guidance
on the L-1 VisafReformfAct as part of the draft L-1B specialized knowledge policy
memorandum that is currently under review (see Recommendation 1). This guidance is
intended to provide both ISOs and stakeholders with clear standards for the
adjudication of L-1B petitions. In addition, during the development of the policy
memorandum guidance, USCIS will assess the need for regulatory guidance and AAO
precedent decisions.

OIG Analysis: The USCIS plans are responsive to the intent of the recommendation.
USCIS should provide a copy of the memorandum as stated in Recommendation 1 and a
copy of the assessment addressing the need for regulatory guidance. We consider
recommendation 10 Resolved and Open.




www.oig.dhs.gov                         32                                 OIG-13-107

                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


Appendix A
Objectives, Scope, and Methodology
The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
established by the HomelandfSecurityfActfoff2002 (Public Law 107-296) by amendment
to the InspectorfGeneralfActfoff1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the Department.

We initiated this review at the request of U.S. Senator Charles Grassley, based on his
concerns about fraud and abuse within USCIS’s L-1 intracompany transferee visa program.
He also requested an update on the Office of Inspector General’s 2006 report titled
ReviewfoffVulnerabilitiesfandfPotentialfAbusesfoffthefL-1fVisafProgramf(OIG-06-22,f
January 2006).

In addition to a review of the L-1 visa program’s policies and procedures, we conducted
71 interviews with managers and staff, within DHS and the Department of State, at two
of the four service centers and consular posts in India. We also interviewed
headquarters leadership in the Service Center Operations, Field Operations, and Fraud
Detection and National Security directorates. Through domestic and international
fieldwork, we observed DHS personnel and consular officials as they processed L-1
petitions and discussed the challenges they face. Our file review and observations
included conversations with expert Immigration Service Officers, Consular Officers, and
Customs and Border Protection Officers about particular cases. We reviewed:

   •	 Data related to L-1 visa usage;
   •	 Implementation of the specialized knowledge definition;
   •	 Use of the L-1 blanket petition process;
   •	 U.S. Customs and Border Protection’s role in granting or denying admission to
      L-1 applicants at the Canadian land border;
   •	 Use of the L-1 visa program to establish new offices in the United States;
   •	 Use of the Validation Instrument for Business Enterprises; and
   •	 Use of the L-1fVisafandfH-1BfVisafReformfActfoff2004fto deny L-1 visa petitions
      for labor-for-hire issues.

We conducted this review under the authority of the InspectorfGeneralfActfoff1978, as
amended, and according to the Quality Standards for Inspections issued by the Council
of the Inspectors General on Integrity and Efficiency.




www.oig.dhs.gov                            33	                                 OIG-13-107

                                OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security


Appendix B
Management Comments to the Draft Report

                                                                                 U.S.   n~pa rTmellt   (If Homellind SHllril)'
                                                                                 U.s. C,tlZensh lp ~nd Immigration Services
                                                                                 OJfiu   'if'''1!- IJirecIQr MS.ZIJO()
                                                                                 Washington, I)('      2(1.~2"'.2f)(1C)



                                                                                 u.s. Citizenship
                                                                                 and Immigration
                                                                                 Services




                                                              y
          JUN I 4 2013


          Memorandum
          TO:         Charles K. Edwards
                      Deputy Inspecto r Gene:af \  AApi(
          FROM:       Alej andro N. Mayorka
                      Director
                                                   I Vl
          SUBJECT: Office of Inspecror General Draft Report: Implementation of L-I Visa Regzilalions-
                   For Official Use Only - DIG Project No. J2-016-fSP-USCIS


          Thank you for thc opportunity to review and comment on your draft report, implementatioff ofL-
          I Visa Regulations. U.S. Citizenship and Immigration Services (USCrS) recognizes and
          appreciates the DHS Office of Inspector General' s (DIG's) time and work in planning and
          conducting its study to examine how users, among other agencies, implements the L-I visa
          regulations, includ ing the definition of specialized knowledge, the use of L-I status to open a
          new branch office, and the blanket petition process. As noted in the report, USClS implemented
          r~c()mm enda tions tn improve the L-l Visa program ha~ll on the DHS OrG's 2006 report,
          Review of Vulnerabilities and Potential Abuses of the L I Visa Program, OIG-06-22 (January
          2006). This current report wi ll help USClS and its government colleagues at U.S. Customs and
          Border Protection (CBP) and the Department of State (DOS) to continue to enhance the
          program's overall effectiveness and integrity.

          USCIS and CBP have reviewed the ten recommendations contained in the draft report and we
          concur wi th the recommendations. In fact, we already have taken steps 10 address the majority
          of them. The following are USClS's and CBP's responses to the recommendations contained in
          the draft report; we have noted implementation challenges where appropriate.

          Recommendation 1: USCIS publish new guidance to clarify the USCIS interpretation of
          specialized knowledge. This guidance should be suffic iently explic it to give adjudicators an
          improved basis for detennining whether employees of a petitioning entity possess specialized
          knowledge.




www.oig.dhs.gov                                          34                                                               OIG-13-107

                                  OFFICE OF INSPECTOR GENERAL
                                        Department of Homeland Security



           Onice or inspecLor (Jeneral Drall Report: Implementation q(/, 1 J/isa Regulations             f.()T   Omcial
           Use On(}, - OlG J'n:rect -,-Vo. 12-U16-J,')j·'-USC1S
           Page 2

           Response: Concur. USCIS has a draft policy mcmorandum in revi.::w for oflicial ag.::ncy
           ekanmce. TIle draft policy memorandum specifically addresses L-IB speeializ.::d kno\-vkdge
           adj udications, including the imporLance ofthe 2004 Vi~a Reform i\.d.

           Recommelldatio1l2: eSCIS sere.::n L-l b.::ndiciarics against a list of persons previously d.::ni.::d
           visas by DOS consLllar orricers.

           Response: Concur, but note there are signiiicnnt implementation ehnllenges. USCIS thlly
           agrees with the intent of the recommendation. Ho\-vever, it will be difficult to accomplish the
           recommendation in the near term because the computer system currently used for T, visa
           adj lldicatio11s does llot allov.. r()r this type or coordinatio11 v.. iLh DOS records. '111e t)-pe or
           screening the OIG recommends \vould r.::quir.:: .:::\1r.::mdy time-consuming manualnam.:: eh.::cks,
           "\'I.'hieh have a high degree of '::lTor due to nam.:: misspellings and frequent name changes (e.g.,
           change in marital stahl';;). lJSCTS plans to integrate the t~ype of screening included in this
           recommendntion into its L nrljudicatof): process once L petitions are added to the esc IS
           Electronic Immigration System (USCIS ELlS). a system that is capable of interia.cing with DOS
           systems such as th.:: COllSular Consolidated Database (CCD).

           Currently, tlu-ough USCIS ELlS, nonimmigmnts mny tile to ehnnge their stntus to D-l, 13-2, P-l,
           F-2, J-1, J-2, 1",1-1 or 1",1-2: nonimmigrants in B-1, B-2, F-l, 1.1-1 or 1.1-2 status may file to ext.::nd
           their stay: and F and 1\,1 nonimmigranLs may rile rOTreinstalement Or status. New immigrants
           mll~L also pay their USCIS Immigrant t'ees through LSCIS ELlS. LSCIS ELlS will begin
           processing immigrnnt petitiom~ for nlien entrepreneurs this summer illld plnns to introduce
           processing of replacement Pennanent Resident Cards in the fall.

           rollowing its first rdea:;e in !day 2012, USCIS transiLioned the development of USCIS ELlS
           from a traditional \vatcrfall methodology to a more modular Agile methodology. This approach
           .::nabks smaller incr.::ments of capability to be rc1eas.::d on a more frequent basis than \yith
           traditional watelfall system development. Tn /\gile, the capahilities to be deployed are
           reprioritized \vith each release to maximize business vnlue and build upon prior development.
           Beeaus.:: a eompreh.::nsiv.:: deployment schedule is not .::stablished in advanc.::, this adds a d.::gree
           ofuneeliainty to the timcline for "\'I.'h.::n specific benefit types \yill be deployed in USCIS ELlS,
           particularly in the out yean;. llo\,,'ever, as cllrrenLly plmmed, the L adjudicaLion proce~~ \vill be
           incorpornted into USCIS ELlS as part ofthe employment-based nonimmigrnnt product line in
           fiscal year (FY) 2015. following th.:: deploym.::nt of the family-based immigrant product lines in
           FY2014.

           RecomlUelldatio1l3: eSCIS develop broader vmrking-Ievel communications opportunities
           between ISOs adjudicating I. petitions and DOS consular officers adjudicating I, visa
           applications.

           Response: Concur. USCIS agrees that clos.:: cOlllmunication \yith DOS is critical and \ycleollles
           the opportunity to work closely with DOS consular officers on T, visa adjudications. eSCIS
           plan:; to e~labli~h regular meeling~ \vith the Visa Oflke in the Bureau of Con~ular Afl:lirs aL
           DOS regarding L adjudication issues. USCIS m.::t and conferred \",ith Bureau of Consular




www.oig.dhs.gov                                               35                                                          OIG-13-107

                                  OFFICE OF INSPECTOR GENERAL
                                       Department of Homeland Security



           Onice or InspecLor (Jeneral Drall Report: Implementation q(/, 1 J/isa Regulations          f.()T   Omcial
           Use On(}, - OlG J'n:rect -,-Vo. 12-U16-J,')j·'-USC1S
           Pagc 3

           Affairs personnd in the developmcnt of its draft L-IB policy memorandum rcfer.::nccd above.
           CSCIS will ,,,"ork with the Bureau of Consular Affairs to atunge thc most .::fficicnt mcans of
           maintaining per.;on-lo-person conllllunicdions, given budget challenges and tUlle zone
           differences amongst relevnnt personnel.

           ReL"()mmendation 4: CBP provide lhorough T,-1 visa trainil1g to all CBPOs processing T,-1
           traveler.; at polis of entry or predearance/prel1ight stations in C<-lnada. Tr<-linuIg should include
           detemlining petitioner's eligibility, L-l fraud detection, correct assessment of fees, specinlized
           lu:lo\vledge, and the provisions of the Visa Refo1m Act.

           Response: CIW concurs with this recommendatio1l. CI ~P()s receive extemiive I.-1 training at
           thc CBP Field Operations Acad.::my atId formal post-acad.::my training. CBP continually and
           periodically provides L-l trauling to all CBPOs who ar.:: pcrrollnulg adjudicative duties at the
           POTts of entry (POEs).

           On lun.:: 27. 2012, CBP providcd enhanced administrative guidance to CBPOs through thc
           rdease of a dctailcd ='fo1th A.mcrica Frce Trade Agrecmcnt (='fA.FTA) Ref.::rcnce Guidc for Th
           and L applic,mts. 'llle guide is ,m enlumced operational manual designed Lo clarify Canadian
           business travelers' entry provisions under NAfTA and nchieve optimal consistency nt all POEs.

           Tn July 2012, CRP created a "Business Traveler's Comer" (RTC) \.. ehpage on CRPne1secure
           LInder the "Dl1icer's Reference Tool"' site where the latest memoranda and regulations pertaining
           to 1..- 1 visas and bw.i ness travelers are posted. '111e BTC webpage is ma intained and updated
           regularl y. It is an c fl'cctivc source of info nllation for CBPOs secking info nnati on pertaining 10
           admissibility about 1..- J visas and busi ness travelers. CB P wi ll continue to provide the highest
           standard of training to the CBPOs in regards to processin g 1..- 1 applications, including,
           periodicaUy reminding thc CBPOs via mustcrs and training mcmoranda of the proper procedures
           for adjudicating 1..-1 appli cations.

           CEP considers recomm endation 4 complete and requests closure.

           Rccommcnd .. tion 5: CB p. in concert with USCIS, establish fra ud fee collecti on guidelines for
           capOs processin g L-1 trave lers. At a minimum, procedures should prevent incorrect charges to
           tra vel ers, provide an audit trail, and show CB POs a history of the traveler's previous fee
           pil)1nents.

           Rl'sponSl': CDP and LSCIS concur with this recommendaLion. CDP and USCIS will idenLify
           the level of detail regarding fee information in CSCIS systems that is available to CBPOs at the
           nOTthem border. After CRP and lTSCTS detennine infonnation needs and identify any gaps, CRP
           willlhen, \-"iLh Lhe assislance orlJSCIS, develop and implement soluti011S that provide all
           appropriate level of infol111ation to CDPDs processulg L-l travelers nt the northem border. Once
           solutions arc unpkmcnt.::d, CBP will d.::vdop an intcmal stratcgy for thc implemcntation offraud
           fee collection by the CBPOs.




www.oig.dhs.gov                                             36                                                         OIG-13-107

                                 OFFICE OF INSPECTOR GENERAL
                                       Department of Homeland Security



           Onice or InspecLOT (Jeneral Drall Report: Implementation q(/, 1 J/isa Regulations          f.()T   Omcial
           Use On(}, - OlG J'n:rect -,-Vo. 12-U16-J,')j·'-USC1S
           Pagc 4

           Recommelldatio1l6: eSCIS mak.:: a sitc visit a requirement before ,::x1.::nding l-y.::ar nc,,,-' ottice
           petitions.

           Response: Concur. USCIS fraud Detection and ~ational Security Directorate expects to begin
           conducting post-adjudication dom.::stic L-l compliancc sitc visits in thc First Quarter of FY2014.

           Rt'mmmt'nd:ttion 7: CDP reque~t USCIS to provide CBPOs at the northem border ports of
           entry and pre-clearance locations with access to VIDE to assist in L-l petition processing.

           Response: CBP concurs ,vith this r.::conul1endation. On lvlay 7, 2013, CBP requested from
           eSCIS acc.::ss to VIBE for CBPOs at thc northern border POEs and pr.::-c1carance locations. On
           tl.hy 22, 20n, LlSCIS agreed to grallt CBP access to VIBE. CBP proposes thallhe granting or
           access he phased in v.aves allhe northem horder rOEs and pre-clearance locaLions.
              • Phase 1: Access ,,,ill be givcn to CBPOs stationed at Northcastcrn Border POEs (to bc
                compkted by Octob.::r 31 , 2013):
              • Phase 2: Access ,,,ill be givcn to CBPOs stationed at Northwcstcrn Border POEs (to b.::
                compkted by ~ov.::mbcr 30, 2013); and
              • Phase 3: Access ,,,ill be givcn to CBPOs stationed in Pr.::c1caranc.:: (to b.:: completed by
                Dccember 31,2013).

           USCIS ,,,ill provide VIBE training to a group of CBPOs selected by their respective tield
           omces. "lhese selected CBPOs will in turn provide in-house training to C13POs granted access
           to VmE.

           CBP consid.::rs recomm.::ndation 7 compIete and r.::quests closur.::.

           ReL"()mmendation 8: CSCIS granL CRr access 10 VTBE to assisL in T,-l petition processing and
           pro1l1ote program integrity.

           Response: Concur. USCIS agrecs that granting CEP acccss to VIBE will assist CBP with the
           processing of I. petitions at the border and will promote program integlity. It should he noted,
           hm"ever, thnt infonnntion available via VIBE to CBPOs nt the border \"ill only reflect those
           petitions for which US CIS gencratcd a reccipt numbcr. USCIS will continuc to rcvie\v hm,"
           VIBE data is cn1crcd and r.::cordcd to maximize CBP's ability to proc.::ss L-l pctitions and
           promote program integrity.

           Recommelldatio1l9: eSCIS crcat.:: a regulation on th.:: Visa Reform Act anti-'Job-shop"
           provisions thaI will ill crease consistency in decisioll-making.

           Response: Concur. USCIS agrees tl1..:'lt it is important to have consistency and clarity in
           adjudications under the T,-1 Visa Refonll /\ct of2004. The draft 1.-1 R policy memorandum that
           is currently in clearance includes guidance on implemelltation orthese provisions. LSCIS is also
           considering rulemnking under the L-l Visn Retonn Act so that it cnn provide its omcers, as well
           as its stakeholders, with enhanced darit~y as to the standards that apply to L-IB petitions. hI




www.oig.dhs.gov                                             37                                                         OIG-13-107

                                    OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security



           Onice or InspecLoT (Jeneral Drall Report: Implementation q(/, 1 J/isa Regulations       f.()T   Omcial
           Use On(}, - OlG J'n:rect -,-Vo. 12-U16-J,')j·'-USC1S
           Page 5

           addition, CSCIS  ""illbe considering use of the Administrative Appeals Office (AAO) precedent
           decision process as a vehicle for enhancing guidance in this area.

           Recommendation 10: US CIS update existing guidrulce on the Visa Refonn Act anti-')ob-shop"
           provisions that Immigration Service Officers can usc in the interim while a regulation is created.

           Rt'sponst': Concur. USClS ha::; induded guid;mce on the L-l Visa ReIoTIll Ad as part of the
           draft L-ID specialized knO\....ledge policy memorandum that is currently under review (see
           Recommendation 1). This guidance is intended to provide both ISOs and stakeholders with clear
           standards for the adjudication of T,- 1R petitions. Tn addition, during the development of the
           policy memorandum guidam:e. LSCIS \-vill assess Lhe lleed ror regulatory guidance and AAO
           preccdent decisions.

           Again, Oil behalf oflJSCTS and eRr. thank you for the opportunity to review and comment on
           this draft report. Technical comments and sensitivity COllunents \....ere previously provided wlder
           scparatc covers.




www.oig.dhs.gov                                           38                                                        OIG-13-107

                           OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security


Appendix C
Regulation Definitions
DEFINITIONS RELATED TO L-1 PETITIONERS

Qualifying organization: a United States or foreign firm, corporation, or other legal
entity which:
( 1 ) Meets exactly one of the qualifying relationships specified in the definitions of a
parent, branch, affiliate or subsidiary;
( 2 ) Is or will be doing business (engaging in international trade is not required) as an
employer in the United States and in at least one other country directly or through a
parent, branch, affiliate, or subsidiary for the duration of the alien's stay in the United
States as an intracompany transferee; and
( 3 ) Otherwise meets the requirements of section 101(a)(15)(L) of the Act.

Parent: a firm, corporation, or other legal entity which has subsidiaries.

Branch: an operating division or office of the same organization housed in a different
location.

Affiliate: (1) One of two subsidiaries both of which are owned and controlled by the
same parent or individual, or
( 2 ) One of two legal entities owned and controlled by the same group of individuals,
each individual owning and controlling approximately the same share or proportion of
each entity, or
( 3 ) In the case of a partnership that is organized in the United States to provide
accounting services along with managerial and/or consulting services and that markets
its accounting services under an internationally recognized name under an agreement
with a worldwide coordinating organization that is owned and controlled by the
member accounting firms, a partnership (or similar organization) that is organized
outside the United States to provide accounting services shall be considered to be an
affiliate of the United States partnership if it markets its accounting services under the
same internationally recognized name under the agreement with the worldwide
coordinating organization of which the United States partnership is also a member.

Subsidiary: a firm, corporation, or other legal entity of which a parent owns, directly or
indirectly, more than half of the entity and controls the entity; or owns, directly or
indirectly, half of the entity and controls the entity; or owns, directly or indirectly, 50
percent of a 50-50 joint venture and has equal control and veto power over the entity;
or owns, directly or indirectly, less than half of the entity, but in fact controls the entity.




www.oig.dhs.gov                               39                                     OIG-13-107

                          OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security

Doing business: the regular, systematic, and continuous provision of goods and/or
services by a qualifying organization and does not include the mere presence of an
agent or office of the qualifying organization in the United States and abroad.

New office: an organization which has been doing business in the United States through
a parent, branch, affiliate, or subsidiary for less than one year.

Blanket Petitions: (i) A petitioner which meets the following requirements may file a
blanket petition seeking continuing approval of itself and some or all of its parent,
branches, subsidiaries, and affiliates as qualifying organizations if:

(1)The petitioner and each of those entities are engaged in commercial trade or
services;
(2)The petitioner has an office in the United States that has been doing business for one
year or more;
(3)The petitioner has three or more domestic and foreign branches, subsidiaries, or
affiliates; and
(4)The petitioner and the other qualifying organizations have obtained approval of
petitions for at least ten “L” managers, executives, or specialized knowledge
professionals during the previous 12 months; or have U.S. subsidiaries or affiliates with
combined annual sales of at least $25 million; or have a United States work force of at
least 1,000 employees.

DEFINITIONS RELATED TO L-1 BENEFICIARIES

Intracompany transferee: an alien who, within three years preceding the time of his or
her application for admission into the United States, has been employed abroad
continuously for one year by a firm or corporation or other legal entity or parent,
branch, affiliate, or subsidiary thereof, and who seeks to enter the United States
temporarily in order to render his or her services to a branch of the same employer or a
parent, affiliate, or subsidiary thereof in a capacity that is managerial, executive , or
involves specialized knowledge. Periods spent in the United States in lawful status for a
branch of the same employer or a parent, affiliate, or subsidiary thereof and brief trips
to the United States for business or pleasure shall not be interruptive of the one year of
continuous employment abroad but such periods shall not be counted towards
fulfillment of that requirement.

Specialized knowledge: special knowledge possessed by an individual of the petitioning
organization's product, service, research, equipment, techniques, management, or
other interests and its application in international markets, or an advanced level of
knowledge or expertise in the organization's processes and procedures.



www.oig.dhs.gov                             40                                   OIG-13-107

                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security

Managerial capacity: an assignment within an organization in which the employee
primarily:
( 1 ) Manages the organization, or a department, subdivision, function, or component of
the organization;
( 2 ) Supervises and controls the work of other supervisory, professional, or managerial
employees, or manages an essential function within the organization, or a department
or subdivision of the organization;
( 3 ) Has the authority to hire and fire or recommend those as well as other personnel
actions (such as promotion and leave authorization) if another employee or other
employees are directly supervised; if no other employee is directly supervised, functions
at a senior level within the organizational hierarchy or with respect to the function
managed; and
( 4 ) Exercises discretion over the day-to-day operations of the activity or function for
which the employee has authority. A first-line supervisor is not considered to be acting
in a managerial capacity merely by virtue of the supervisor's supervisory duties unless
the employees supervised are professional.

Executive capacity: an assignment within an organization in which the employee
primarily:
( 1 ) Directs the management of the organization or a major component or function of
the organization;
( 2 ) Establishes the goals and policies of the organization, component, or function;
( 3 ) Exercises wide latitude in discretionary decision-making; and
( 4 ) Receives only general supervision or direction from higher level executives, the
board of directors, or stockholders of the organization.




www.oig.dhs.gov                            41                                  OIG-13-107

                               OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


Appendix D
Top Ten L-1 Employers, FY 2002 – FY 2011

                                                                    L-1A           L-1B
                                    Employer                                                    Total
                                                                  Petitions      Petitions
                    Tata Consultancy Services Limited                  7,571        18,337 25,908
                    Cognizant Tech Solutions US Corp                   1,521        18,198 19,719
                    IBM India Private Limited                            446         5,276      5,722
                    Wipro Limited                                      1,574         3,933      5,507
                    Infosys Technologies Limited                         620         3,395      4,015
                    Satyam Computer Services Limited                     333         2,941      3,274
                    HCL America Inc                                        40        1,934      1,974
                    Schlumberger Technology Corp                         684           795      1,479
                    Price Waterhouse Coopers LLP                       1,196           179      1,375
                    Hewlett Packard Co                                   533           721      1,254
                    Total Submissions                                14,518         55,709 70,227
                  Source: U.S. Citizenship and Immigration Services, Office of Performance and Quality,
                  Data Analysis and Reporting Branch, March 8, 2012.




www.oig.dhs.gov                                    42                                         OIG-13-107

                               OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


Appendix E
H-1B and L-1B Submissions, FY 2002 – FY 2011

                    Fiscal       H-1B        L-1B
                                                      Ratio
                    Year      Submissions Submissions
                     2002          178,871              12,256    14.6
                     2003          212,083              16,114    13.2
                     2004          309,368              17,161    18.0
                     2005          264,218              19,972    13.2
                     2006          296,424              25,952    11.4
                     2007          311,889              29,552    10.6
                     2008          286,462              24,841    11.5
                     2009          245,006              16,226    15.1
                     2010          245,788              17,704    13.9
                     2011          262,480              15,913    16.5
                     Total       2,612,589           195,691      13.4
                  Source: U.S. Citizenship and Immigration Services, Office of Performance and Quality,
                  Data Analysis and Reporting Branch, February 24, 2012.




www.oig.dhs.gov                                    43                                         OIG-13-107

                       OFFICE OF INSPECTOR GENERAL
                          Department of Homeland Security


Appendix F

Major Contributors to This Report
Douglas Ellice, Chief Inspector
LaDana Crowell, Inspector
Michael Brooks, Inspector
Kara Lawlor, Inspector
Darin Wipperman, Former Lead Inspector




www.oig.dhs.gov                          44                 OIG-13-107

                           OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security


Appendix G
Report Distribution
Department of Homeland Security

Secretary
Deputy Secretary
Chief of Staff
Deputy Chief of Staff
General Counsel
Executive Secretary
Director, GAO/OIG Liaison Office
Assistant Secretary for Office of Policy
Assistant Secretary for Office of Public Affairs
Assistant Secretary for Office of Legislative Affairs
DHS Component Liaison
Acting Chief Privacy Officer

Office of Management and Budget

Chief, Homeland Security Branch
DHS OIG Budget Examiner

Congress

Congressional Oversight and Appropriations Committees, as appropriate




www.oig.dhs.gov                               45                        OIG-13-107

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to:

       Department of Homeland Security 

       Office of Inspector General, Mail Stop 0305 

       Attention: Office of Investigations Hotline 

       245 Murray Drive, SW 

       Washington, DC 20528-0305 


You may also call 1(800) 323-8603 or fax the complaint directly to us at
(202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
